             Office of Inspector General




August 19, 2005

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Estimated Fiscal Year 2005 Supply Chain Management Impact Associated
         With National Office Supply Contract
         (Product Number CA-OT-05-003)

On July 7, 2005, Supply Management personnel requested the Office of Inspector
General to assist them in estimating the fiscal year (FY) 2005 cost avoidance
associated with Postal Service’s contract with Boise Cascade Office Products, Inc.
(Boise) for office supplies. We agreed to perform an analysis, under Project Number
05BG015CA000, similar to the FY 2004 analysis presented in our draft Management
Advisory, Estimated Supply Chain Management Impact Associated With National Office
Supply Contract (Report Number CA-MA-05-DRAFT, dated July 29, 2005).

For this analysis, we used data from the fourth quarter of FY 2004 (July 1 through
September 30, 2004) and the first three quarters of FY 2005 (October 1, 2004, through
June 30, 2005). After the fourth quarter of FY 2005, we will update the analysis to
include all FY 2005 data.

To perform the analysis, we compared the Boise Postal Service eBuy data and Boise
General Services Administration (GSA) Advantage prices. Based on the data
comparison and analysis, we estimated the cost avoidance to be approximately
$5 million.

                                      ESTIMATED COST AVOIDANCE
                                                                                   Net
                                                                                Savings
                          Cost avoidance for items on the Postal               $3,942,156
                          Service’s Boise and Boise GSA
                          Advantage price schedules1
                          Estimated cost avoidance for items not               $1,091,500
                          on the Boise GSA Advantage price
                          schedule2
                                          TOTAL                                $5,033,656

1
  This represents the increased costs that the Postal Service would have incurred if it had purchased the items from
the Boise GSA Advantage schedule.
2
  This is an estimate for items that are unique to the Postal Service where there are no listed Boise GSA Advantage
prices. The Postal Service has not verified whether they could purchase these items at a lower price from other
vendors on the open market. Therefore, we calculated an estimate by multiplying the amount spent for those items
by the percentage of savings for those items that are on Boise GSA Advantage.
If you have any questions or need additional information, please contact
Judy Leonhardt, Director, Supply Management, or me at (703) 248-2300.


/s/ John M. Seeba

John M. Seeba
Deputy Assistant Inspector General
 for Financial Operations

cc: Richard J. Strasser, Jr.
    Karen E. Kallipolites
    Marie K. Martinez
    Steven R. Phelps
